 AUDIT OF THE FEDERAL BUREAU OF PRISONS 

RESIDENTIAL REENTRY CENTER CONTRACT WITH 

   BEHAVIORAL SYSTEMS SOUTHWEST, INC. 

         CONTRACT NO. DJB200038 

            PHOENIX, ARIZONA 


         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


        Audit Report GR-60-13-013 

              September 2013 





        REDACTED - FOR PUBLIC RELEASE 

          AUDIT OF THE FEDERAL BUREAU OF PRISONS
         RESIDENTIAL REENTRY CENTER CONTRACT WITH
            BEHAVIORAL SYSTEMS SOUTH W EST, INC.
                  CONTRACT NO. D1B200038
                       PHOENIX, ARIZONA

                              EX ECUTIVE SUMMARY'

       The Office of the Inspector General (OIG), Audit Division, has
 completed an audit of the Federal Bureau of Prisons (BOP) Contract
 No. DJB200038, awarded to Behavioral Systems Southwest, Inc. The
 purpose of the contract is to operate and manage the Residential Reentry
 Center (RRC) located in Phoenix, Arizona (Phoenix RRC). A requirements
 contract was awarded for the Phoenix RRC on September 8, 2010, which had
 an estimated award amount of over $13 million for the base period and
 three option years. Actual costs for the base period and the first option year
 (through March 31, 2013) were $6,700,523, as shown in Exhibit 1.

               .
EXH I BIT l ' CONT RACT PERIOD AND COSTS'
  Contract                                                                   Actual Cost
   Period        From       To    Estimated Cost                           (throuqh 03/ 31/ 13)
Base Period     10/01/10 09/30/12   $ 5,372,850                              $    5,354,931
Option Year 1 10/01/12 09/30/13        2,719,250                                  1,345,593
Option Year 2 10/01/13 09/30/14        2,755,750
Ootion Year 3 10/01/14 09/30/15        2,792,250
Total                              $ 13,640,100                                $ 6, 7 00,5 2 3
Source: The contract and the list of contract-related expenditures

       The BOP utilizes RRCs to transition inmates into communities prior to
their release from incarceration. Inmates participating in release
programming at RRCs remain in federal custody while serving the remainder
of their sentences . At the same time, the inmates are allowed to work, visit
with family members, and engage in a limited range of activities . According
to the BOP, RRCs provide a structured, supervised environment, along with


        • The full version of this report includes information that the Office of the Inspector
General considered to be procurement sensitive, and therefore cannot not be publicly
released. The Office of the Inspector General believes that disclosure of estimated man-days
and per diem rates could impair future negotiations. To create this public version of the
report, the Office of the Inspector General redacted these portions of the full report.

       1 Throughout this report, differences between the aggregated costs and totals are due
to rounding.
support in job placement, counseling, and other services to facilitate
successful reentry into the community after incarceration.

       The objective of our audit was to review performance in the following
areas: (1) BOP monitoring activities, (2) RRC policies and procedures,
(3) RRC personnel, (4) RRC resident accountability, (5) RRC programs and
activities, (6) billings, and (7) BOP contract solicitation and award.

       In conducting the audit, we obtained an understanding of the contract
requirements along with the Phoenix RRC's controls and processes. We
reviewed documents and conducted interviews with Phoenix RRC and BOP
officials to determine if services were provided in accordance with the
contract and if billed costs were accurate. Our audit disclosed that the
Phoenix RRC did not always comply with the BOP's Statement of Work
(SOW) for RRC operations. Out of the 50 inmates files examined, we found
the following:

   • 	 For the 15 passes reviewed, 22 accountability checks were not
       conducted, out of the 82 required (27 percent) . We also found nine
       passes (60 percent) that were incomplete.

  • 	 Individualized Program Plans (IPP) were not updated timely for 31 of
      the 504 (6 percent) IPP updates reviewed.

  • 	 Of the 31 inmates employed from our sample of 50 inmates, initial
      employment verifications were not conducted timely for 3 inmates
      (10 percent) and 11 of the 80 (14 percent) required subsequent
      monthly employment verifications we reviewed were not conducted.

      Based on the findings related to BOP Contract No. DJB200038,
awarded to Behavioral Systems Southwest, Inc., we made three
recommendations to the BOP to assist its management and oversight of the
contract. These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix 1.




                                      ii
                          TABLE OF CONTENTS

I NTRODUCTION .... ......... .............. ... .... .......... .... . ............ .   II •• •••• ••   1


      Background ........................................................ .. ....... ..... .... 1 

      Our Audit Approach ....... . ........... . ..... .... ............. .................. ... 2 


FINDINGS AND RECOM MENDATIONS ........... .. ....... .... ..... ........... 3 


      Com pliance with SOW Req uirements ................................. 3 

         Inmate Security and Accountability ............................ ... ...... 3 

         Inmate Individualized Program Plans ...... .. ..... .. .. ........ .......... 4 

         Inmate Employment .... .. ................ . ..... ............................. . 5 

         Inmate Release ....... ... .............. ... ................ ................... .. . 5 

         Inmate Drug Testing ......................................................... 6 

         Escapes ................. .. ......... .. ..... ........................................ 6 

         Inmate Vehicle Searches ................ .. .... .... ... .. .... ........ ......... 6 

         Employee Training and Background Checks .. ........................ 7 

         Inmate Arrival and Intake .... ...... ........................................ 7 

      Billings and Invoices .................. .. .......................................... 7 

         Inmate Subsistence .................................. ..... ........ ............ 8 

      Contract Solicitation and Award of Contract.. ....... .. ................... 8 

      Monitoring ........................................................................... 8 

      Recommendations .... .. .................. ...... ....... .. ......................... 9 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGy.. .. ... 10 


APPE NDIX II - PHOENIX RESIDENTIAL REE NTRY CENTER'S 

     RESPO NSE TO THE DRAFT REPORT ..... .... ..... ............. ...... 11 


APPENDIX III - FEDERAL BUREAU OF PRISONS' RESPO NSE 

    TO THE DRAFT REPORT ........ .. ... ...... .. ....... ......... ...... .... .. . 13 


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL 

    ANALYSIS AND SUM MARY OF ACTIONS NECESSARY TO 

    CLOSE THE REPORT ....... ....... .. ............ .. .... .. ... ............... I . 15 

                                   INTRODUCTION 


       The Office of the Inspector General (OIG), Audit Division, has
 completed an audit of the Federal Bureau of Prisons (BOP) Contract
 No. DJB200038, awarded to Behavioral Systems Southwest, Inc. The
 purpose of the contract is to operate and manage the Residential Reentry
 Center (RRC) located in Phoenix, Arizona (Phoenix RRC). A requirements
 contract was awarded for the Phoenix RRC on September 8, 2010, which had
 an estimated award amount of over $13 million for the base period and
 three option years. Actual costs for the base period and the first option year
 (through March 31, 2013) were $6JOO,523, as shown in Exhibit 1.

EXHIBIT l' CONTRACT PERIOD AND COSTS 2
            ,
   Contract                                                                Actual Cost
     Period     From       To    Estimated Cost                          (throuah 03/31/13)
Base Period    10/01/10 09/30/12  $    5,372,850                           $   5,354,931
Option Year 1  10/01/12 09/30/13       2J19,250                                1,345,593
Option Year 2 10/01/13 09/30/14        2J55J50
Option Year 3 10/01/14 09/30/15        2,792,250
Total                            $   13,640,100                             $ 6,700,523
Source: The contract and the list of contract-related expenditures

Background

       The BOP utilizes RRCs to transition inmates into communities prior to
their release from incarceration. Inmates participating in release
programming at RRCs remain in federal custody while serving the remainder
of their sentences. At the same time, the inmates are allowed to work, visit
with family members, and engage in a limited range of activities. According
to the BOP, RRCs provide a structured, supervised environment, along with
support in job placement, counseling, and other services to facilitate
successful reentry into the community after incarceration. Generally, the
RRCs operate under the BOP Statement of Work (SOW) for RRC operations.

      On September 8, 2010, the BOP awarded Behavioral Systems
Southwest, Inc. a requirements contract to operate an RRC in Phoenix,
Arizona. The Phoenix RRC is a 95-bed facility housing both male and female
inmates. As shown in Exhibit 2, the BOP pays the contractor a per diem
rate, which is the price per inmate, per day based on the actual inmate
count at the Phoenix RRC.


       2 Throughout this report, differences between the aggregated costs and totals are due
to rounding.
                                              1
    EXHI BIT 2 : PAYME NT RATE

     Cont ract Period                                  Estimated Costs
    Base Period                                          $ 5,372,850
    Option Year 1                                        $ 2,719,250
    Option Year 2                                        $ 2,755,750
                  3                                         2 792 250

   Source : The contract

OIG Audit Approach

       The objective of our audit was to review performance in the following
areas: (1) BOP monitoring activities, (2) RRC policies and procedures,
(3) RRC personnel, (4) RRC resident accountability, (5) RRC programs and
activities, (6) billings, and (7) BOP contract solicitation and award.

      The results of our audit were based on interviews with essential
personnel and documentation provided to us by both the BOP and the
Phoenix RRC. Our audit included reviewing inmate files at the Phoeni x RRC,
as well as the testing of accounting and billing records from the effective
date of the contract, October 1, 2010, through November 30, 2012.




                                      2

               FINDINGS AND RECOMME N DATIONS 


      The Phoenix RRC did not always comply with the criteria outlined
      in the BOP SOW for RRC operations. Specifically, the Phoenix
      RRC did not always perform the required number of
      accountability checks for inmates away on passes, or completely
      fill out the passes. In addition, the Phoenix RRC did not always
      update the Individualized Program Plans in a timely manner or
      complete the required initial or subsequent employment
      verification of inmates in a timely manner. As a result, the RRC
      did not adequately monitor the inmates. These issues, as well
      as other areas covered in our audit, are discussed in detail in the
      following sections.

Com pliance wi t h SOW Require m e nts

Inmate Security and Accountability

        RRCs must be able to locate and verify the whereabouts of inmates at
all times. RRCs must contact the inmate either by telephone or in-person at
random times at work, at home, or at authorized destinations to maintain
accountability . The RRC must conduct these checks at a frequency that
ensures accountability and is commensurate with the accountability risks of
each individual inmate. RRCs can only authorize an inmate to leave the
facility through sign-out procedures and only for an approved program
activity. Approved program activities typically include job searches,
employment, religious services, and visitations with family and friends.
During authorized absences, the RRC is still responsible for inmate
accountability.

      Pursuant to the SOW, documentation of an inmate's movement in and
out of RRCs must include, at a minimum: staff initials, the inmate's full
name and register number, type of inmate, time out, destination, purpose,
authorized return time, time in, and a section for special comments. Passes
may be used by RRCs for approved inmate absences overnight and on
weekends. RRCs must make accountability checks for inmates away on
passes at least twice a day.




                                      3

      We examined the sign -out logs and passes for aliSO inmates in our
sample, which included 15 passes. We found that 22 accountability checks
for inmates away on passes were not conducted, out of the 82 required
(27 percent). We also found that nine passes (60 percent) were incomplete:

      • 	 Nine passes (60 percent) were missing the inmate's return
          signature.

      • 	 Two passes (13 percent) were missing the inmate's estimated
          return time.

      • 	 Two passes (13 percent) were missing the RRC facility director's
          approval signature.

      • 	 One pass (7 percent) was missing the inmate's estimated departure
          time.

      • 	 One pass (7 percent) was missing the inmate's departure signature.

      • 	 One pass (7 percent) was missing the inmate's requesting
          signature.

      We discovered no instances of sign - out logs being incomplete.

      We recommend that the BOP ensure that the Phoenix RRC comply with
SOW requirements to include all required information on passes and perform
required accountability checks for inmates away on passes.

Inmate Individualized Program Plans

      During an inmate's first 2 weeks at the RRC, the RRC must complete
an Individualized Program Plan (IPP) that addresses all of the inmate's needs
and includes a timetable for achievement of these goals. During our review
of 50 inmate case files, we found that an IPP was missing for 1 inmate
(2 percent). The RRC was unable to locate the case file for this inmate. All
other information regarding the inmate was located in alternative RRC files.
However, the RRC could not locate the IPP and related updates. We
discovered no instances of IPPs being conducted after the 2-week deadline.

     Additionally, these IPPs must be updated and signed by both the
inmate and the inmate's case manager every 2 weeks. During our review of
50 inmate case files, we found the IPPs were not updated timely for
17 inmates. This resulted in 31 late IPP updates, out of 504 IPP updates

                                      4

reviewed (6 percent). The updates for these IPPs were between 1 and
14 days late, with an average of 3 days late. Of the 31 IPP updates that
were late, 15 updates (48 percent) were only 1 day late. The number of late
IPPs per inmate ranged from one to five late IPPs. Additionally, the inmate
missing the IPP was also missing documentation of all IPP updates.

    We recommend that the BOP ensure that the Phoenix RRC comply with
SOW requirements to update the inmate IPPs at least every 2 weeks.

Inmate Employment

      Inmates are expected to be employed 40 hours a week within
30 calendar days after their arrival at the RRC. The RRC must grant written
approval for each job an inmate acquires. The RRC must also verify
employment by conducting an on - site visit during the first 7 calendar days of
employment. Thereafter, at least monthly, the RRC is required to contact
the inmate's employment supervisor by phone or site visit to substantiate
attendance and discuss any problems which may have arisen .

       During our review of 50 inmate case files, we found that 31 inmates
were employed while at the RRC. The required employment verifications
were not conducted within 7 calendar days for three inmates (10 percent).
These initial employment verifications were between 10 and 30 days late.
We discovered no instances of missing initial employment verifications. We
also found that the required subsequent monthly employment verifications
were not always conducted for three inmates. The number of missing
subsequent monthly employment verifications per inmate ranged from two
to five missing verifications. In total, 11 subsequent monthly employment
verifications were missing, out of 80 required (14 percent). We discovered
no instances of missing RRC approvals of inmate employment.

      We recommend that the BOP ensure that the Phoenix RRC comply with
SOW requirements to verify inmate employment during the first 7 calendar
days and at least monthly thereafter.

Inmate Release

       RRCs are required to submit a terminal report to the BOP within
5 working days of an inmate's release. During our review of 50 inmate case
files, we were unable to locate 2 terminal reports, out of the 52 required
(4 percent).



                                      5

      We consider the number of missing terminal reports to be immaterial;
therefore, we are not making any recommendations related to this issue.

Inmate Drug Testing

       An inmate kn"own to have a history of drug abuse, or who is suspected
of illegal drug use, must be tested for illegal substances no less than four
times per month. During our review of the 50 inmate case files, we found
that 39 inmates were required to be tested for illegal substances while at the
RRC. Not all mandatory drug tests were conducted for one inmate. This one
inmate was only drug tested two times per month during 2 months of their
stay at the RRC. This resulted in 4 missing drug tests out of the more than
700 required drug tests for the 39 inmates in our sample.

      We consider the number of missing drug tests to be immaterial;
therefore, we are not making any recommendations related to this issue.

Escapes

        If an inmate fails to return to the facility at their required time, the
RRC must attempt to locate the inmate. Once all efforts to locate the inmate
fail, the inmate is considered an escapee. The RRC is then required to
contact the BOP Regional Reentry Manager to place the inmate on escape
status. Once an inmate is placed on e, cape status, the RRC must prepare
                                           s
an incident report and conduct a disciplinary hearing. Two inmates from the
50 case files reviewed were placed on escape status. We found that one
escapee (50 percent) was not given a disciplinary hearing. We found no
instances of missing incident reports for escapees.

       We consider the number of missing disciplinary hearings to be
immaterial; therefore, we are not making any recommendations related to
this issue.                            I




Inmate Vehicle Searches

      Inmates may be granted driving privileges. This is normally done for
employment purposes. The RRC must conduct searches of inmates' vehicles
at least once per month. We found no instances of missing inmate vehicle
searches.




                                       6

Employee Training and Background Checks

      The BOP requires all RRC staff to obtain clearance before working with
inmates. We reviewed a sample of 15 employee files, as well as the files of
the RRC facility director and the 2 Social Services Coordinators. We found
no instances of employees working with inmates prior to obtaining
clearance.

      The BOP requires all RRC staff to attend new employee training, as
well as annual refresher training, to inform employees of the rules and
regulations related to operating an RRC. We found no instances of
employees not attending the required trainings.

Inmate Arrival and Intake

       Upon their arrival, inmates are required to be interviewed by RRC
staff. In addition, the inmates are also required to sign: (1) an initial intake
information form, (2) an acknowledgment of receipt of the RRC's disciplinary
policies, and (3) a release of information consent form. Additionally, an
acknowledgement of RRC rules and a subsistence agreement form must be
completed and kept in the inmate's file. We found no indication that arrival
and intake interviews were not conducted or that required documentation
was missing.

Billings and Invoices

      The BOP pays the contractor a per diem rate, which is the price per
inmate, per day based on the actual iflmate count at the Phoenix RRC. We
compared the RRC billings with the BOP SENTRY database for each month
from October 1, 2010, through November 3D, 2012, and found no
discrepancies in the billings. 3

      Medical expenses for inmates are paid by the RRC. The RRC requests
reimbursement from the BOP during the next monthly billing. Supporting
documentation is required to accompany the reimbursement request. We
examined all 11 medical reimbursement requests during the audit period
and found all contained proper supporting documentation.




       3 Developed in-house beginning in the mid-1970s, SENTRY is used to collect,
maintain, and report all inmate information that is critical to the safe and orderly operation of
the BOP facilities.

                                                7

Inmate Subsistence 

       To promote financial responsibility, the BOP requires inmates to make
subsistence payments to RRCs each payday to help defray the cost of their
confinement. Most inmates are required to pay 25 percent of their gross
income, although waivers may be granted. RRCs are responsible for
collecting the full subsistence payments due. The RRCs are required to
reduce the monthly billings to the BOP by the amount of subsistence
payments collected.

      Of the 31 inmates in our sample who were employed while at the RRC,
we found 1 inmate for whom the RRC did not collect subsistence. This
inmate was due to receive their first paycheck on September 24, 2010, and
was granted a subsistence waiver by the BOP on October 14, 2010. No
records were kept of the inmate's gross pay during these 20 days that the
inmate should have paid subsistence. Therefore, we were unable to
determine the amount of subsistence that should have been collected.

       We consider the number of uncollected subsistence instances to be
immaterial; therefore, we are not making any recommendation related to
this issue.

Contract Solicitation and Award of Contract

      On September 8, 2010, the BOP awarded a contract to Behavioral
Systems Southwest, Inc. to provide community-based residential
correctional services by operating the Phoenix RRC. These services include
employment, inmate development, and other self-improvement
opportunities to assist federal inmates during the transition from prison to
the community.

      The solicitation process used to acquire inmate residential reentry
services for Phoenix, Arizona, and the subsequent awarding of the contract
to the Phoenix RRC was in accordance with the Federal Acquisition
Regulation (FAR). The request for bids was advertised on FedBizOpps.gov
as required, and the BOP officials received and evaluated bids in accordance
with the FAR.

Monitoring

      The BOP is required to conduct regular monitoring of all RRC
contractors to ensure compliance with applicable laws, regulations, policies,
contract requirements, and to ensure that fraud, waste, abuse,

                                      8

mismanagement, and illegal acts are prevented, detected, and reported.
These monitoring visits include pre-occupancy inspections, unannounced
interim monitoring inspections, and annual full monitoring inspections.

       We reviewed all four monitoring reports which occurred during the
contract period. We found no instances of missing BOP monitoring
inspections. We found no repeat deficiencies identified in the monitoring
reports. We found that the Phoenix RRC took steps to address deficiencies
identified by the BOP.

Recommendations

      We recommend that the BOP ensure that the Phoenix RRC complies
with the SOW requirements to:

1. 	   Include all required information on passes and perform required
       accountability checks for inmates away on passes.

2. 	   Update inmate IPPs at least every 2 weeks.

3. 	   Verify inmate employment during the first 7 calendar days and at least
       monthly thereafter.




                                      9

                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to review performance in the following
areas: (1) BOP monitoring activities, (2) RRC policies and procedures,
(3) RRC personnel, (4) RRC resident accountability, (5) RRC programs and
activities, (6) billings, and (7) BOP contract solicitation and award.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on the inception of the contract on
September 8, 2010, through November 30, 2012.

       We performed sample testing on inmate case files and employee files.
In this effort, we employed a judgmental sampling design to verify that SOW
requirements were met for all files reviewed. We selected a sample of
50 inmate case files, out of the 851 inmate case files, that were at the RRC
during the contract period for Contract No. DJB200038. We also selected a
sample of 18 employee case files, out of 81 employee case files, that were
at the RRC during the contract period. This non -statistical sample design
does not allow projection of the test results to the universe from which the
sample was selected.

      We also reviewed all billing and invoice records from October 1, 2010,
through November 30, 2012. Finally, we reviewed all BOP monitoring
reports of the Phoenix RRC from October 1, 2010, through
December 31, 2012.

       In addition, we verified the Phoenix RRC invoice and payment records
against BOP records to assess the accuracy of billings; however, we did not
test the reliability of the financial management system as a whole. We
determined that the contractor's records were sufficiently reliable to meet
the objectives of this audit.




                                     10 

                                                                                                                     APPENDIX II

PHOENIX RRC'S RESPONSE TO THE DRAFT REPORT



                                         Behavioral Systems Southwest 

                                               118 Avenida Victoria 

                                            San Clemente, CA 92672 

                                        (949) 492-3574/(949) 492-6798 fax 

                                  cslindholm@behavioralsystemssouthwest.com 




August I, 2013

David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
U.S. Department of Justice 

1120 Lincoln Street 

Suite 1500 

Denver, CO 80203 


         Re: July 25, 2013 Audit Report (#DJB200038)

Mr. Sheeren:

I am in receipt ofthe July 25, 2013 OIG Audit Report which identified three (3) findings , ESS Phoenix has
taken the following corrective action to address the identified findings, as well as to prevent future recurrence.

Finding #1- Inmnte Security and Accountllbility

Corrective Action:

As of July 25,2013, aU Security staff have been counseled and instructed to ensure that accountability
calls made to and from Residents are documented appropriately. The Security Supervisor will inspect
accountability calls more closely. Case Service staffhave been counseled and instructed to scrutinize
each and every pass to ensure that they are completed prior to submitting for approval. The Program
Director will also ensure that the passes contain all necessary information before approving.

Finding #2 - Inmate Individualized Program Pluns

Corrective Actiol/.'

As of July 25,2013, Assistant Program Directors will conduct random audits on the Bi-Weekly
lndividua! Program Plan Reviews to ensure they are being completed within the required 14 day time
frmne.




                                                        11 

Page Two - OIG Audit Response


Finding #3 - Inmate Employment

Corrective Action:

As of July 25, 2013, tile Social Service Coordinator and the Security Accountability Officer have reviewed
resident new hire procedures and have made alterations to ensure proper communication for the initial checks.
FUl1her, they have created a calendar to ensure that all employed Residents are verified at work as required by
the SOW.

Should fwther information be necessary or if I can answer .my further questions, please do not besitate to call.
Thank you for your continued support of BSS Phoenix.




Christopher Lindholm
President/COO




                                                       12 

                                                                                                   APPENDIX III 


FEDERAL BUREAU OF PRISONS' RESPONSE TO THE DRAFT REPORT 


                                                                 U.S. Department of .Justice

                                                                 Federal Bureau of Pri sons




      (Jfli/"/' "f ilII' /)in'/ '/{!/"

                                                                 August 26 , 2013




      MEMORANDUM FOR 	 DAVID SHEEREN
                                         REGIONAL AUDIT MANAGER
                                         OFFICE OF THE INSPECTOR GENERAL




                                         cf:!:1Jl2~
                                         Director
                                         Federal Bureau of Prisons

      SUBJECT: 	                         Response to the Office of Inspector Genera l 's (DIG)
                                         DRAFT Report :   Audit of the Federal Bureau of Prisons
                                         Resident i al Reentry Center Contract with Behavio ral
                                         Systems Southwest, Inc. Cont ract No . DJB20Q038
                                         Phoenix, Arizona

      The Bureau of Prisons (BOP) appreciates the opportuni ty to respond
      to the open recommendations f r om the draft report entitled Audit of
      the Federal Bureau of Prisons Residential Reentry Center Contract
      with Behavioral Systems Southwest, Inc. Contract No. DJB200038
      Phoenix, Arizona.

      Please find the Bureau's response t o the recommendations below:

      Recommendation 1: Include all requi red information on passes and
      performs required accountability checks for inmates away on passes.

      BOP's Response: The Bureau agrees with the recommendation. The
      Statement of Work (SOW) for this facili ty require s the contractor
      to maintain all pertinent information on passes and account f or




                                                          13 

inmates while they are signed out of the facility. This
documentation is monitored by the BOP during contract monitorings
of the facility. Previously, the BOP has noted deficiencies and the
contractor took appropriate corrective action regarding inmate
accountability to inc lude incomplete forms. The Bureau will
continue to place emphasis on this area during future monitorings
and inspections of the facility. We request that this
recommendation be closed.
Recommendation     2:   Update inmate IPPs at least every 2 weeks.

BOP's Response:  The Bureau agree's with the recommendation . The SOW
requires the contractor to update inmate IPPs at least every 2 weeks.
This activity is monitored by the Bureau during contract monitorings
of the facility. The Bureau will continue to place emphasis on this
area during future monitorings and inspections of the facility. We
request that this recommendation be closed.

Recommendation 3: verify inmate employment during the first 7
calendar days and at leas t monthly thereafter.

BOP's Response :   The Bureau agrees with the recommendation. The SOW
requires the contractor to verify inmate employment during the first
7 calendar days and at least monthly thereafter. This activity is
monitored by the Bureau during contract monitorings of the fa cility.
Previously, deficiencies were noted and the BOP took appropriate
action as permitted by the contract regarding inmate employment
verification. The Bureau will continue to place emphas is on this
area during f u ture monitorings and inspections of the facility . We
request that this recommendation be closed .

If you have any questions regarding this response, please contact
Sara M. Revell, Assistant Director, Program Review Division, at
(202)   353-2302.




                                      2




                                    14 

                                                                APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO CLOSE THE REPORT 


       The OIG provided a draft of this audit report to the BOP and the
Phoenix RRC. The responses are incorporated into Appendices II and III of
this final report. The following provides the OIG analysis of the responses
and summary of actions necessary to close the report.

Recomm endation Number

   1. 	 Resolved. The BOP concurred with our recommendation that it
        ensure the Phoenix RRC complies with the SOW requirement to
        include all required information on passes and perform required
        accountability checks for inmates away on passes. The BOP
        indicated that it will monitor this requirement during future onsite
        inspections of the RRC.

       In its response, the Phoenix RRC concurred with our recommendation
       and stated that security and case service staff have been counseled
       and instructed of this requirement to ensure that accountability
       checks will be made and all required information will be included on
       passes. The Phoenix RRC also stated that the Security Supervisor
       and Program Director will inspect the accountability calls and passes
       more closely.

       This 	recommendation can be closed when we receive documentation
       supporting that the BOP has ensured that the Phoenix RRC complies
       with the SOW requirement to include all required information on
       passes and perform required accountability checks for inmates away
       on passes.

  2. 	 Resolved. The BOP concurred with our recommendation that it
       ensure the Phoenix RRC complies with the SOW requirement to
       update inmate IPPs at least every 2 weeks. The BOP indicated that it
       will monitor this requirement during future onsite inspections of the
       RRC.

       In its response, the Phoenix RRC concurred with our recommendation
       and stated that the Assistant Program Directors will conduct random

                                      15
    audits of the bi -weekly IPP updates to ensure they are being
    completed within the required deadline.

    This recommendation can be closed when we receive documentation
    supporting that the BOP has ensured that the Phoenix RRC complies
    with the SOW requirement to update inmate IPPs at least every
    2 weeks.

3. 	 Resolved. The BOP concurred with our recommendation that it
     ensure the Phoenix RRC complies with the SOW requirement to verify
     inmate employment during the first 7 calendar days and at least
     monthly thereafter. The BOP indicated that it will monitor this
     requirement during future onsite inspections of the RRC.

    In its response, the Phoenix RRC concurred with our recommendation
    and stated that the Social Services Coordinator and the Security
    Accountability Officer have reviewed and made alterations to their
    procedures. The Phoenix RRC further stated that RRC staff have
    created a calendar to ensure that all employed residents will have
    their employment verified by the deadlines required by the SOW.

    This recommendation can be closed when we receive documentation
    supporting that the BOP has ensured that the Phoenix RRC complies
    with 	the SOW requirement to verify inmate employment during the
    first 	 calendar days and at least monthly thereafter.
          7




                                 16 

